CERTIFICATE OF SERVICE

I, Michel Paradis, hereby certify that one (1) copy of the foregoing
Petition for Writ of Certiorari in Al Bahlul v. United States, was sent via
USPS Priority Mail to the U.S. Supreme Court, and via e-mail service to the
following parties listed below, this 24th day of August, 2021:

Brian H. Fletcher

Acting Solicitor General of the United States
DEPARTMENT OF JUSTICE

Room 5616

950 Pennsylvania Ave., N.W.

Washington, DC 20530-0001

1.202.514.2217
SupremeCtBriefs@USDOJ.gov

Counsel for Respondents

Executed on August 24, 2021
Pa
CHEL PARADIS

Counsel of Record
DEPARTMENT OF DEFENSE
MILITARY COMMISSIONS

DEFENSE ORGANIZATION
1620 Defense Pentagon
Washington, DC 20301

1.703.695.4672
michel.d.paradis.civ@mail.mil

Counsel for Petitioner
